          U.S. ENVIRONMENTAL PROTECTION AGENCY
          OFFICE OF INSPECTOR GENERAL



                                          Catalyst for Improving the Environment


Evaluation Report


       EPA Has Initiated Strategic Planning
       for Priority Enforcement Areas,
       but Key Elements Still Needed

       Report No. 08-P-0278

       September 25, 2008
Report Contributors:	              Dan Engelberg
                                   George Golliday
                                   Kathryn Hess
                                   Renee McGhee-Lenart
                                   Gerry Snyder




Abbreviations

CSO          Combined Sewer Overflow
EPA          U.S. Environmental Protection Agency
FY           Fiscal Year
LDAR         Leak Detection and Repair
MACT         Maximum Achievable Control Technology
OECA         Office of Enforcement and Compliance Assurance
OIG          Office of Inspector General
OMB          Office of Management and Budget




Cover photos: 	   Examples of the three enforcement priority areas reviewed, clockwise from
                  left: an industrial plant emitting air toxics; a combined sewer overflow
                  outlet; and a cement plant engaged in mineral processing (EPA photos).
                       U.S. Environmental Protection Agency 	                                              08-P-0278
                                                                                                   September 25, 2008
                       Office of Inspector General


                       At a Glance

                                                                            Catalyst for Improving the Environment


Why We Did This Review            EPA Has Initiated Strategic Planning for Priority
                                  Enforcement Areas, but Key Elements Still Needed
We undertook this review to
determine how well the
                                   What We Found
U.S. Environmental Protection
Agency (EPA) planned to
                                  OECA has instituted a process for strategic planning in its national enforcement
ensure success in its
                                  priority areas. It has developed strategic planning guidance and a strategy
enforcement priority areas.       template to facilitate continual review and improvement of the strategies. The
We reviewed current priority      Fiscal Years 2008-2010 strategic plans we reviewed, for air toxics, combined
area strategies for air toxics,
                                  sewer overflows, and mineral processing, contain an overall goal, a problem
combined sewer overflow,
                                  statement, a description of the current status of the priority area, anticipated
and mineral processing.
                                  environmental benefits, the facilities to be addressed, the tools to be used, and
                                  OECA Headquarters and regional responsibilities.
Background
                                  However, each of the plans is missing key elements to monitor progress and
EPA’s Office of Enforcement
                                  accomplishments and efficiently utilize Agency resources. All three strategies
and Compliance Assurance
                                  lack a full range of measures to monitor progress and achievements. Two
(OECA) focuses on core
                                  strategies lack detailed exit plans. Additionally, the combined sewer overflow
program activities and a
                                  strategy does not address the States’ key roles in attaining the strategy’s overall
limited number of national
                                  goal. The absence of these elements hinders OECA from monitoring progress and
priorities. Through the
                                  achieving desired results in a timely and efficient manner.
national priorities, OECA
directs its resources to           What We Recommend
significant environmental
problems where patterns of        We recommend that the Assistant Administrator for Enforcement and Compliance
noncompliance have been           Assurance issue policy that requires strategy documents for the priority areas to
established and where a direct    include:
federal role is needed.
                                      •    a full range of performance measures;
                                      •    exit plans; and
                                      •    the States’ roles, where needed.
For further information,
contact our Office of             We also recommend that the Assistant Administrator develop a cost-effective
Congressional and Public          methodology for measuring resource inputs in the national priorities.
Liaison at (202) 566-2391.
                                  OECA concurred with the recommendation for making improvements in priority
To view the full report,
click on the following link:      strategy documents, and indicated how it plans to address our concerns. However,
www.epa.gov/oig/reports/2008/     OECA did not agree with our recommendation on developing a methodology for
20080925-08-P-0278.pdf            measuring resource inputs. OECA stated that the use of input measures is an
                                  Agency-level issue and should be addressed at that level. For reasons detailed in
                                  the report, we believe the recommendation is valid.
                      UNITED STATES ENVIRONMENTAL PROTECTION AGENCY
                                   WASHINGTON, D.C. 20460


                                                                                        OFFICE OF
                                                                                   INSPECTOR GENERAL



                                       September 25, 2008

MEMORANDUM

SUBJECT:           EPA Has Initiated Strategic Planning for Priority Enforcement Areas,
                   but Key Elements Still Needed
                   Report No. 08-P-0278


FROM:              Wade Najjum
                   Assistant Inspector General, Office of Program Evaluation

TO:                Granta Nakayama
                   Assistant Administrator, Office of Enforcement and Compliance Assurance


This is our report on the subject evaluation conducted by the Office of Inspector General (OIG)
of the U.S. Environmental Protection Agency (EPA). This report contains findings that describe
the problems the OIG has identified and corrective actions the OIG recommends. This report
represents the opinion of the OIG and does not necessarily represent the final EPA position.
Final determinations on matters in this report will be made by EPA managers in accordance with
established resolution procedures.

The estimated cost of this report – calculated by multiplying the project’s staff days by the
applicable daily full cost billing rates in effect at the time – is $544,912.

Action Required

In accordance with EPA Manual 2750, you are required to provide a written response to this
report within 90 calendar days. You should include a corrective actions plan for agreed upon
actions, including milestone dates. We also ask that you reconsider your position not to accept
the report’s second recommendation. We have no objections to the further release of this report
to the public. This report will be available at http://www.epa.gov/oig.

If you or your staff have any questions regarding this report, please contact me at (202) 566-0832
or najjum.wade@epa.gov; or Dan Engelberg, Director of Program Evaluation, Enforcement and
Water Issues, at (202) 566-0830 or engelberg.dan@epa.gov.
EPA Has Initiated Strategic Planning for                                                                                             08-P-0278
Priority Enforcement Areas, but Key Elements Still Needed



                                      Table of Contents 

   Purpose          .......................................................................................................................    1    


   Background ....................................................................................................................             1        


           Air Toxics Priority Area ...........................................................................................                1        

           Combined Sewer Overflow Priority Area ................................................................                              2        

           Mineral Processing Priority Area ............................................................................                       2        


   Noteworthy Achievements ............................................................................................                        3        


   Scope and Methodology................................................................................................                       4        


   Missing Strategy Elements Hinder Measuring Program Progress............................                                                     5        


           Strategies Do Not Contain Full Range of Measures ...............................................                                    5

           Two Strategies Do Not Include a Plan for Exiting the Priority Area.........................                                         7

           States’ Roles in Accomplishing Overall CSO Strategy Goal Not Addressed ..........                                                   7


   Conclusions....................................................................................................................             8        


   Recommendations .........................................................................................................                   8        


   Agency Comments and OIG Evaluation .....................................................................                                    8


   Status of Recommendations and Potential Monetary Benefits.................................                                                  9        




Appendices
    A      OECA’s Template for Developing a Performance-Based Strategy

           for National Compliance and Enforcement Priorities ........................................                                        10    


   B       Prior Reports .........................................................................................................            12    


   C       Agency Comments................................................................................................                    13


   D       OIG’s Evaluation of Agency Comments..............................................................                                  23    


   E       Distribution ............................................................................................................          35    

                                                                                          08-P-0278 



Purpose
The U.S. Environmental Protection Agency’s (EPA’s) Office of Enforcement and Compliance
Assurance (OECA) has prepared performance-based strategies for its national compliance and
enforcement priority areas. EPA’s focus on national priorities is important because it allows
OECA to direct its resources to significant environmental problems where a pattern of
noncompliance has been established and a direct federal role is needed. The Office of Inspector
General (OIG) undertook this evaluation to determine how well EPA strategically planned to
ensure progress and accomplishments in its national enforcement priority areas. We reviewed
three priority area strategies: air toxics, combined sewer overflow (CSO), and mineral
processing

Background

OECA is responsible for maximizing compliance with 10 distinct federal environmental statutes
dealing with prevention and control of air pollution, water pollution, hazardous waste, and toxic
substances. OECA’s national program is organized into two major components: (1) core
program activities that implement the requirements of all environmental laws, and (2) a limited
number of national priorities that focus on significant environmental risks and noncompliance
patterns. OECA evaluates candidate priorities and selects final national priorities using three
criteria: (1) significant environmental benefit, (2) pattern of noncompliance, and (3) appropriate
EPA responsibility. OECA selected nine priority areas for Fiscal Year (FY) 2008-2010. The
three we reviewed are emphasized in the following list:

               •   Air Toxics
               •   New Source Review/Prevention of Significant Deterioration
               •   Wet Weather – Concentrated Animal Feeding Operations
               •   Wet Weather – CSOs
               •   Wet Weather – Sanitary Sewer Overflows
               •   Wet Weather – Storm Water
               •   Financial Responsibility
               •   Mineral Processing
               •   Tribal Compliance Assurance

       Air Toxics Priority Area

       Air toxics are those air pollutants that are known or suspected to cause cancer or other
       serious health problems. Through the 1990 Clean Air Act amendments, Congress
       directed EPA to use a technology and performance-based approach to significantly
       reduce emissions of air toxics from major sources of air pollution. “Major” sources are
       defined as sources that emit 10 tons per year of any specific air toxics, or 25 tons per year
       of a mixture of air toxics. Under the technology-based approach, EPA develops
       standards for controlling the routine emissions from each major type of facility within an
       industry group. These standards, known as maximum achievable control technology
       (MACT) standards, are based on emissions levels that are already being achieved by the



                                                 1

                                                                                  08-P-0278 



better-controlled and lower-emitting sources in an industry. As of February 1, 2008, EPA
had developed and published MACT standards for 96 major source categories.

OECA established air toxics as a priority area in 2000. The objective was to distribute
the substantial MACT implementation workload between EPA Headquarters and the
regions through a regional “Adopt-a-MACT” program. The focus of the air toxics
priority shifted in April 2003 from primarily a compliance assistance and tool
development effort to compliance monitoring and enforcement. For FY 2005-2007,
EPA’s air toxics goal was to achieve an annual reduction of at least 36,000 pounds of air
emissions regulated by the MACT standards. In April 2006, EPA set an even more
aggressive goal of reducing 750,000 pounds of air emissions over the 3-year period. The
FY 2008-2010 air toxics strategy focuses on three specific problem areas: leak detection
and repair (LDAR), flares, and surface coating.

Combined Sewer Overflow Priority Area

CSO discharges are identified as a significant source of impairment to receiving waters.
Contaminants discharged include bacteria, viruses, metals, nutrients, and oxygen-
consuming compounds. A combined sewer system carries both storm water and sanitary
sewage. Normally, its entire flow goes to a wastewater treatment facility. But, during a
heavy storm, the volume of water may be so great as to cause overflows of untreated
mixtures of storm water and sewage into receiving waters. According to a 2004 Report
to Congress, annual CSO discharges are about 850 billion gallons. The systems serve
approximately 46 million people, in over 700 communities, in 32 States, mostly in the
Northeast and upper Midwest. In 1994, EPA established policy that laid out steps needed
to eliminate or minimize the impacts of CSOs. This policy was codified by amendments
to the Clean Water Act in 2000.

OECA established CSO as a priority area in 1998. Under the priority area, EPA strives to
get communities with combined sewer systems, where required by the Clean Water Act,
to establish and implement long-term control plans that have enforceable schedules.
These schedules are important because of the high costs and the extensive time – as long
as 20 years – that will be needed for the communities to complete the major infrastructure
construction activities set out in their plans. For the FY 2008-2010 priority area strategy,
EPA’s primary focus is to ensure that communities representing significant population
centers are making appropriate progress towards addressing CSO problems and
violations.

Mineral Processing Priority Area

Environmental impacts caused by mineral processing and mining are significant.
According to EPA, mineral processing and mining facilities generate more wastes that
are corrosive or contain toxic metals than any other industrial sector. Many of these
facilities have contaminated groundwater, surface water, and soil due to noncompliance
with State or federal environmental requirements or legally permissible waste
management practices. The United States has approximately 100 to 150 mineral



                                         2

                                                                                         08-P-0278 



       processing facilities and 300 to 500 active mining sites. Some facilities are located in
       close proximity to large populations, and the health risk to people living near these
       facilities is of significant concern to EPA.

       In 2004, OECA developed a national strategy covering FY 2005-2007. The overall goal
       of this strategy was to ensure that high-risk facilities in mineral processing and mining
       were in compliance or on a path to compliance, or were otherwise working to reduce risk
       to human health and the environment through such measures as implementing best
       management practices. The strategy placed special emphasis on mineral processing
       facilities that produced phosphoric acid, but also focused on non-phosphoric acid
       facilities and mining facilities. The FY 2008-2010 strategy contains the same overall
       goal for mineral processing as the previous strategy, but the focus of the goal for mining
       facilities was changed from enforcement activities to compliance assistance.

Strategic planning is important because it:

   •   provides a roadmap and direction,
   •   sets priorities,
   •   allocates resources for maximum efficiency and effectiveness,
   •   establishes measures of success so that progress can be measured,
   •   gains commitment to the plan by involving the organization in its development, and
   •   coordinates actions of diverse parts of the organization into unified programs.

An important early step in strategic planning is developing a range of performance measures to
indicate what is being accomplished and whether results are being achieved. According to
Office of Management and Budget (OMB) guidance, performance measurement should include
goals, annual and long-term outcome performance measures, and output performance measures.
The guidance also states that output and outcome performance measures need to include a
description of what is being measured, a target, and a timeframe to effectively measure
performance. OMB also encourages input measures to determine cost efficiency and program
effectiveness. According to OMB guidance, outcomes describe the specific intended result or
consequence that will occur from carrying out the program. Outputs are the goods and services
produced by the program that contribute toward achieving outcomes and goals. Inputs are
resources, often measured in dollars or full-time equivalents, used to produce the outputs and
outcomes. Input measures complement performance measures by providing information on how
resources and efforts are being or should be allocated to ensure efficiency and effectiveness.

Noteworthy Achievements

OECA has placed an increasing emphasis on strategic planning in recent years. To assist in this
initiative, OECA formed teams for each priority area to plan and implement the work that needed
to be done. Since 2003, OECA’s teams have developed priority area strategies for all of their
priority areas. These documents help communicate the vision of OECA Headquarters to the
regions concerning work that needs to be completed in the nine priority areas. To correct
deficiencies it identified in the FY 2003-2005 priority area strategies, OECA in 2004 issued
internal guidance for priority strategies. According to OECA, OECA’s Template for Developing


                                                3

                                                                                                    08-P-0278 



a Performance-Based Strategy for National Compliance and Enforcement Priorities (see
Appendix A) was used as the standard against which the FY 2005-2007 strategies were
reviewed. In March 2007, OECA issued a Guide for Addressing Environmental Problems:
Using an Integrated Strategic Approach.

In the three priority area strategies for FY 2008-2010, the current status of the priority area is
well defined. Each priority strategy has an overall goal, problem statement, the anticipated
environmental benefits, the facilities to be addressed, the tools to be used, and OECA
Headquarters and regional responsibilities. Additionally, the mineral processing strategy
contains a detailed exit plan with steps to discontinue the priority area and return it to the core
program, and a maintenance plan.

Scope and Methodology

We conducted this performance evaluation from August 2007 through June 2008 in accordance
with generally accepted government auditing standards. Those standards require that we plan
and perform the evaluation to obtain sufficient, appropriate evidence to provide a reasonable
basis for our findings and conclusions based on our evaluation objectives. We believe that the
evidence obtained provides a reasonable basis for our findings and conclusions based on our
evaluation objectives.

We selected the air toxics, CSO, and mineral processing priorities for our review because they
covered a broad range of media (air, water, and land) and represented a mix of newer and older
priorities. We did not evaluate how EPA selected the priority areas.

We reviewed the FY 2008-2010 Performance-Based Strategies for the air toxics, CSO, and
mineral processing priorities using a combination of criteria derived from several sources,1
including OMB guidance. Based on those elements, we reviewed the extent to which the
strategies addressed:

    •	   the current status of the priority areas;
    •	   the results EPA wants to achieve in its priority areas;
    •	   how EPA, regions, and States will get to where EPA wants to be;
    •	   the responsibilities of major stakeholders; and
    •	   the progress and accomplishments of EPA’s goals and performance measures for the
         selected priorities.

We interviewed staff in OECA, the Office of Air and Radiation, the Office of Water, and the
Office of Solid Waste and Emergency Response. We also interviewed staff in EPA Regions 1
through 9. We reviewed those internal controls that were relevant to our objectives. We also
considered findings in prior EPA OIG reports (see Appendix B).

1
 Team-Based Strategic Planning: A Complete Guide to Structuring, Facilitating, and Implementing the Process.
Fogg, C. Davis, 1994; Guide for Addressing Environmental Problems: Using an Integrated Approach. U.S. EPA,
OECA, March 2007, EPA 305-R-07-001; and Performance Measurement Challenges and Strategies. OMB, June
18, 2003.


                                                      4

                                                                                                          08-P-0278 



Missing Strategy Elements Hinder Measuring Program Progress

The three priority area strategies reviewed are missing key elements to monitoring progress and
accomplishments. They lack a full range of measures to monitor progress and achievements.
Two of the strategies lack exit plans. Additionally, the CSO strategy does not address the States’
key roles in accomplishing the strategy’s overall goal. Adding these elements would help OECA
monitor progress so that it can achieve results in a timely and efficient manner.

         Strategies Do Not Contain Full Range of Measures

         OECA’s three priority area strategies do not contain a full range of performance and
         input measures (see Table 1). According to OMB, performance measurement should
         include goals, annual and long-term outcome performance measures, and output
         performance measures. The guidance also states that output and outcome performance
         measures need to include a description of what is being measured, a target, and a
         timeframe to effectively measure performance. OMB also encourages that input
         measures be used to determine cost efficiency and program effectiveness. None of the
         three strategies reviewed has annual outcome measures or input measures, and one does
         not contain a long-term outcome performance measure. OECA did set overall goals and
         had one output performance measure for each strategy in its Annual Commitment
         System. However, because the components of these measures are designed to work
         together, this incomplete suite of measures significantly limits the utility of the
         measurement structure.

         Table 1: FY 2008-2010 Priority Area Strategy Measures

                                                                       Air                      Mineral
                          Goals and Measures                          Toxics       CSOs       Processing

          Overall Outcome Goal                                          Yes          Yes           Yes
                                                                              2
          Long-Term Outcome Performance Measures                        Yes          No            Yes2
          Annual Outcome Performance Measures                            No          No             No
          Output Performance Measures                                   Yes          Yes           Yes
          Input Measures                                                 No          No             No
         Source: OIG analysis of OECA’s FY 2008-2010 strategies

                  Air Toxic Performance Measures

                  The long-term outcome performance measure in the air toxics strategy measures
                  the extent to which EPA has addressed facilities in the three problem areas. For
                  example, EPA defines “addressing facilities” as issuing an administrative order or
                  referring a case to the Department of Justice. While these activities will likely put

2
  The air toxics and mineral processing long-term outcome measures capture the extent to which EPA addressed
facilities by certain activities such as enforcement actions. Although they are certainly correlated with outcomes, we
believe OECA could develop better outcome measures that include such things as bringing facilities into compliance
over a certain period of time.


                                                          5

                                                                         08-P-0278 



facilities on the path to compliance and lead to outcomes, we also believe that
OECA could develop outcome measures that include such things as bringing
facilities into compliance over a certain period of time. It might be difficult to
develop targets for this type of outcome performance measure because facilities
often do not achieve full compliance for many years after an action is taken, and
the OECA priority areas are of fixed duration. However, developing this type of
measure is important because it would capture the strategy’s results.

OECA needs to establish annual outcome performance measures for the air toxics
strategy. Such measures would allow OECA to monitor annual progress toward
achieving its long-term outcome performance measure and, if necessary,
implement any changes needed to keep the program on track. Moreover, any
annual outcome performance measures OECA uses should be associated with its
annual output performance measure. Having long-term and annual outcome
performance measures would help OECA monitor program effectiveness.

CSO Performance Measures

The CSO strategy does not have long-term or annual outcome performance
measures. It does include an overall goal focused on ensuring that communities
representing significant population centers are making appropriate progress
towards addressing CSO problems and violations. This overall goal could also be
considered a long-term outcome measure if it had a timeframe associated with it.
OECA managers told us the overall goal was not meant to be accomplished
during the 3-year strategy cycle. Without outcome measures that contain targets
and timeframes, OECA is not able to gauge whether the pace of progress is
satisfactory.

Mineral Processing Performance Measures

Like the air toxics strategy, the mineral processing strategy contains long-term
outcome performance measures that gauge the extent to which OECA addressed
facilities through activities such as enforcement actions. The points we raised
with respect to the long-term outcome performance measure for the air toxics
strategy also apply to the mineral processing strategy. Further, as with the other
strategies, the mineral processing strategy does not have annual outcome
performance measures. The strategy has outcome measures, but they lack targets
and timeframes, so they are not performance measures. For example, one of the
measures is the percentage of facilities in significant noncompliance that are
returned to compliance; the measure does not have a target or a timeframe against
which to assess performance. This measure could be written as an annual
outcome performance measure by adding a target and timeframe. For example:

       Twenty-five percent of facilities in significant noncompliance
       will be brought back into compliance in FY 2008.




                                 6

                                                                                    08-P-0278 



       This type of information would inform OECA of its annual progress toward
       achieving its goals and enable it to make needed changes.

None of the three priority strategies includes input measures to assess the resources
needed and expended to accomplish OECA’s goals. As a result, OECA cannot measure
the efficiency of its resource utilization or plan, nor adjust for changing resource needs.
There are two aspects to measuring inputs. The amount of resources needed to conduct
priority area activities needs to be projected at the beginning of the planning period.
Further, the amount of resources used for activities needs to be measured. Both measures
can be used to assist the Agency in planning and assessing its performance. OMB has
placed increasing emphasis on agencies measuring efficiency. Senior level OECA
officials said that developing input measures could be difficult and costly. We agree
additional resources would be needed, but without gauging resource utilization OECA is
unable to assess the efficiency of its priority area work.

Two Strategies Do Not Include a Plan for Exiting the Priority Area

Two strategies – CSO and air toxics – do not include plans for leaving the priority area
and transitioning to the core program. According to EPA’s template (Appendix A), each
strategy should include a plan for how EPA will exit its national compliance and
enforcement focus in the priority area once the overall goal is achieved. The plan needs
to address resource obligations, regulated facilities not addressed as part of the strategy,
and actions to safeguard improvements achieved under the strategy. These steps should
enable the priority area to transfer smoothly back to the core program when appropriate.
The CSO strategy states an exit plan will be developed after regions have determined a
more precise universe of CSO permittees needing Federal attention. The air toxics
strategy includes a plan to exit the three national problem areas addressed in the
FY 2008-2010 strategy, but does not address how OECA will discontinue priority
treatment of air toxics as a whole.

The mineral processing strategy includes an exit plan. This plan lays out steps to
discontinue the priority area, as well as the costs of on-going enforcement activities, the
entities not addressed under the strategy, and activities required to maintain the emissions
reductions achieved.

States’ Roles in Accomplishing Overall CSO Strategy Goal Not Addressed

The CSO strategy does not address the States’ roles in accomplishing the strategy’s
overall goal, and we believe doing so would be beneficial. The other two strategies do
not address States’ roles either, but their roles are not as critical as for the CSO strategy.
According to EPA’s template, a component of each strategy is to clearly assign roles and
responsibilities. EPA’s dependence on State actions and the lack of a discussion in the
strategy create uncertainty on whether the overall CSO goal can be achieved.

We expect State permitting and enforcement actions to continue to significantly
contribute to attaining the overall CSO goal. According to our analysis of OECA data,



                                          7

                                                                                                      08-P-0278 



        28 percent of the systems serving large population centers have long-term control plans
        with enforceable schedules in place. One-quarter of these plans resulted from State
        enforcement actions.3 We believe specific information on the States’ roles in
        accomplishing the overall CSO goal needs to be included in the strategy, even though
        other EPA guidance documents lay out authorized State obligations under the Clean
        Water Act. While the strategy acknowledges State environmental agencies as having
        "important roles to play in the CSO strategy," it does not define those roles.

Conclusions

OECA’s strategic planning initiative for priority enforcement created a performance structure for
strategic planning in the three priority areas we examined. This initiative helps EPA ensure
compliance with environmental regulations and better protect human health and the environment.
The three strategies we reviewed would be improved by adding input measures, a full range of
performance measures, and detailed exit plans. The CSO strategy would also be improved by
addressing the States’ roles in accomplishing the overall goal of the strategy. The absence of
these elements hinders OECA from monitoring progress, reporting efficiencies, and achieving
desired results in a timely and efficient manner.

Recommendations

We recommend that the Assistant Administrator for Enforcement and Compliance Assurance:

    1.	 Issue policy that requires strategy documents for the priority areas to include:

        •	 a full range of performance measures (output and outcome measures, and an overall
           outcome goal) with targets and timeframes;

        •	 exit plans, including steps to transition the priority area back to the core program; and

        •	 the States’ roles for those areas where State involvement will be critical in
           accomplishing overall outcome goals.

    2.	 Develop a cost-effective methodology for measuring resource inputs in the national
        priorities.

Agency Comments and OIG Evaluation

OECA concurred with Recommendation 1 and indicated how it plans to address our concerns.
OECA did not concur with Recommendation 2. OECA's detailed comments and OIG’s
evaluation of the comments are in Appendices C and D, respectively. The OIG has incorporated
technical corrections and clarifications from OECA’s comments into the final report as
appropriate.


3
  OECA continues to evaluate State permitting and enforcement actions in coordination with the Office of Water and
the regions to determine whether such actions will result in enforceable and complete long-term control plans.


                                                        8

                                                                                                                                           08-P-0278 





                                 Status of Recommendations and 

                                   Potential Monetary Benefits 


                                                                                                                                 POTENTIAL MONETARY
                                                    RECOMMENDATIONS                                                               BENEFITS (in $000s)

                                                                                                                     Planned
    Rec.    Page                                                                                                    Completion   Claimed    Agreed To
    No.      No.                          Subject                           Status1        Action Official             Date      Amount      Amount

     1        8     Issue policy that requires strategy documents for         O       Assistant Administrator for    4/30/09
                    the priority areas to include:                                        Enforcement and
                       • a full range of performance measures                          Compliance Assurance
                         (output and outcome measures, and an
                         overall outcome goal) with targets
                         and timeframes;
                       • exit plans, including steps to transition the
                         priority area back to the core program; and
                       • the States’ roles for those areas where State
                         involvement will be critical in accomplishing
                         overall outcome goals.

     2        8     Develop a cost-effective methodology for                  U       Assistant Administrator for
                    measuring resource inputs in the national priorities.                 Enforcement and
                                                                                       Compliance Assurance




1    O = recommendation is open with agreed-to corrective actions pending;

     C = recommendation is closed with all agreed-to actions completed;

     U = recommendation is undecided with resolution efforts in progress 





                                                                                  9

                                                                                          08-P-0278 



                                                                                     Appendix A

               OECA’s Template for Developing a 

            Performance-Based Strategy for National 

             Compliance and Enforcement Priorities

I. Problem Statement
A. Define and characterize the environmental or non-compliance problem for the priority area
B. Provide baseline information on the size of the priority universe, geographic distribution of
    the problem, level of compliance, and any environmental justice issues
C. Address how the problem relates to each OECA criteria for priority selection
D. Address how the problem affects Environmental Justice (all strategies) and Federal Facilities
    issues (where appropriate).
E. Describe known or suspected causes of the problem
F.	 Identify existing policies and guidance that address the priority; and past strategies or
    initiatives used to address the problem

II. 	Goals and Measures
A. 	Establish an outcome goal for the priority area
    1. 	 The goal should address the priority area, be measurable, and reasonably achievable in
         the given time frame
    2. 	 Achievement of the goal will serve as the end point for the priority
B. 	Establish outcome and output measures for the priority area
    1. 	 Outcome Measures should be directly linked to, and serve as the primary indicator of
         progress toward achieving the outcome goal
    2. Output Measures serve as indicators of progress toward implementing the components of
         the priority strategy, and will enable managers to track implementation milestones
    3. 	 Measures should be developed for EJ (all strategies) and Federal Facilities (where 

         appropriate) 

C. 	Establish baselines for all measures, or develop a plan for developing a baseline for each of
    the measures

III. Priority Strategy
A. 	Identify a mix of tools that will be used to address the priority area, and how they will result
    in achieving the outcome goal.
B. 	Describe how the tools will be used in conjunction with each other to achieve the best results.
    1. 	 Include the sequence in which tools will be used, targeting priorities, how long they will
         be used, implementation milestones, resource issues, and implementation roles (i.e.,
         headquarters, regions, others)
    2. 	 Include a description of how Environmental Justice (all strategies) and Federal Facility
         issues (where appropriate) will be addressed by the application of the tools
C. 	Develop a plan for periodically reviewing progress and making adjustments to the strategy as
    needed.



                                                10 

                                                                                       08-P-0278 



D. 	Develop internal and external communication strategies. The internal strategy should focus
     on providing managers information on strategy implementation and periodic performance
     measure updates to enable them to track progress and make needed corrections. The external
     strategy should inform the regulated community and stakeholders, help improve strategy
     effectiveness, and communicate results.
E. 	 Assign Roles and Responsibilities. Identify all of the parties that will play a role in
     developing and implementing the strategy, and assign responsibilities for all of the
     development and implementation tasks. Responsibilities should be broken out by
     headquarters, regions, and others.

IV. Exit Strategy
A. 	Identify steps to discontinue formal priority treatment once the outcome goal has been met.
B. 	Develop a maintenance plan to include:
    1. 	 Significant resource obligations
    2. 	 Whether and how to address regulated entities not addressed as part of the strategy
    3.	 Actions to safeguard to improvements achieved; including periodic monitoring, review
         and adjustment

V. 	Workforce Deployment Strategy
A. The priority sector or problem area should be assessed to identify the skill sets needed to
   effectively address the priority and implement the priority strategy. This assessment should
   anticipate the different skills needed at different points in the strategy (e.g., compliance
   assistance early on, more enforcement towards the end).
B. Taking into account the strategy’s ultimate goal, time line, and exit strategy, responsible
   parties in headquarters and regions should estimate the activity levels needed to achieve
   strategy’s ultimate goal in the given timeframe.
C. Gap Analysis - headquarters and regions should identify workforce gaps that will impact
   achieving priority goals, including deficits in overall number of employees to address a
   problem area, and in particular skill sets.
D. Workforce Deployment Recommendations - based on the gap analysis recommendations for
   making workforce adjustments within individual regions and headquarters, and between
   regions, and regions and headquarters should be identified to maximize strategy
   effectiveness.

VI. Schedule
Develop an overall schedule for addressing the priority area.




                                                11 

                                                                                     08-P-0278




                                                                                  Appendix B

                                      Prior Reports

                                          EPA OIG Reports
Title                                             Report No.               Date
Improvements in Air Toxics Emissions Data         08-P-0020                October 31, 2007
Needed to Conduct Residual Risk Assessments
Assessment of EPA’s Projected Pollutant           2007-B-00002             July 24, 2007
Reductions Resulting from Enforcement Actions
and Settlements
Consolidated Report on OECA’s Oversight of        E1GAE7-03-0045-8100244   September 25, 1998
Regional and State Air Enforcement Programs




                            Other Notable Enforcement Reports/Policies
Title                                             Report No.               Date
Report to Congress: Impacts and Control of        EPA 833-R-04-001,        August 2004
CSOs and SSOs, U.S. Environmental Protection
Agency
Combined Sewer Overflow Control Policy,           59 Fed. Reg. 18688.      April 19, 1994
U.S. Environmental Protection Agency
Report to Congress - Wastes from the Extraction   EPA/530-SW-85-033        December 1985
and Beneficiation of Metallic Ores, Phosphate
Rock, Asbestos, Overburden from Uranium
Mining, and Oil Shale, U.S. Environmental
Protection Agency




                                                  12 

                                                                                            08-P-0278 



                                                                                       Appendix C

                                 Agency Comments

                                               August 14, 2008

MEMORANDUM

SUBJECT: 	     Response to the Office of the Inspector General Draft Evaluation Report,
               “EPA Needs to Improve Strategic Planning for Priority Enforcement Areas,”
               Project Number 2007-00967, dated July 16, 2008

FROM: 	        Catherine R. McCabe (signed)
               Principal Deputy Assistant Administrator

TO:    	       Dan Engelberg
               Director of Water and Enforcement Issues
               Office of Inspector General

        Thank you for the opportunity to review and comment on the draft evaluation report,
“EPA Needs to Improve Strategic Planning for Priority Enforcement Areas,” Project Number
2007- 00967, which focuses on improving strategic planning for priority enforcement areas. The
Office of Enforcement and Compliance Assurance (OECA) has completed its review and would
like to provide comments in response to this report. We also appreciate your consideration of
comments this office made in response to the Office of Inspector General’s (OIG) discussion
draft released on April 17, 2008.

        OECA agrees that the national priority strategies could be enhanced in a number of ways
suggested by the IG. OECA will revise its guidance regarding development of the strategies to
require that output and outcome measures with targets and associated timeframes, as appropriate,
goals, milestone schedules, exit strategies and the role of states, if any, be explicitly identified in
the documents.

       We continue to have concerns about the utility and need for input measures tracked by
national priority. As we discussed at a meeting regarding this draft report, the use of input
measures is an Agency-level issue and should be addressed at that level.

         As we have discussed, OECA believes that the title of this report is overly negative given
the findings of the report. We would suggest that the title focus more on potential enhancements
to strategic planning documents for the priority areas.

        OECA would like to request your consideration of a number of remaining comments
which we believe could be incorporated into the final report that will more accurately describe
the use of the performance measures and exit strategies in the national priority strategies. We ask



                                                  13 

                                                                                         08-P-0278 



that you review our attached comments and consider incorporating these comments into the final
report.

        Within 90 days of the date of the final report, OECA will issue a policy memo directing
the Strategy Implementation Teams to clearly identify output and outcome measures with targets
and associated timeframes, as appropriate, goals, milestone schedules, exit strategies and the role
of states, if any, in the strategy documents. These elements will be reflected in the revised
strategies by April 30, 2009.

       Again, we appreciate the opportunity to review and comment on this draft report. Should
you have any questions or concerns regarding this response, please contact OECA’s Audit
Liaison, Gwendolyn Spriggs on 202-564-2439.

Attachment




                                                14 

                                                                                             08-P-0278 





                          OECA Response to OIG Draft Report
           EPA Needs to Improve Strategic Planning for Priority Enforcement Areas
                                (Project No. 2007-000967)

This draft report evaluates three OECA compliance and enforcement priority strategies [Air
Toxics, Combined Sewer Overflows (CSOs) and Mineral Processing]. The draft report raises a
number of issues with each strategy. Our response to the recommendations is provided below:

I.     OECA Response to Draft Report Recommendations

OECA agrees that the national priority strategies could be enhanced in a number of ways
suggested by the IG. Within 90 days from the date of the final OIG report, a memorandum from
the Assistant Administrator or the Principal Deputy Assistant Administrator will be issued to
OECA headquarters and regional managers and staff involved in the management and
implementation of the national compliance and enforcement strategies. The memo will require
that the national priority strategy documents clearly identify output and outcome measures with
targets and associated timeframes as appropriate, goals, milestone schedules and exit strategies.

The policy will state that the revisions suggested by the OIG and accepted by OECA will be
incorporated as part of the regularly-scheduled review of the strategies scheduled for the end of
the first year that the strategy has been in effect. The revisions will be reflected in the strategies
by April 30, 2009.

The policy will state that the strategy documents will address output and outcome measures, and
an overall outcome goal since OECA believes that these measures are most important in ensuring
the effectiveness of the strategies. While OECA believes that most of the strategies include
milestones and exit strategies, the policy will direct the Strategy Implementation Teams to
develop clearer milestone schedules and more explicit exit strategies where needed.

OECA views its state oversight responsibilities as a core program function and is addressed by
the State Review Framework (SRF). Given that state oversight responsibilities apply to the
national compliance and enforcement program as a whole (rather than the priorities) and that the
priority strategies deal with initiatives that are almost exclusively the responsibility of
EPA/OECA, we do not think it is appropriate to address oversight responsibilities in the
strategies. However, the policy to be issued by OECA will direct the SITs to address the role of
states (if any) in the implementation of the strategies by describing the explicit responsibilities
states will be asked to undertake.

Please note that the Office of Water (OW), rather than OECA, is responsible for oversight of
state permitting programs. Therefore, if a large number of combined sewer systems are
addressed through state permits, state oversight of those systems is the responsibility of the
Office of Water (OW).

OECA is not convinced of the value of input measures in determining the effectiveness of the
national priority strategies. The problems selected for national priorities are such that federal



                                                  15 

                                                                                           08-P-0278 



efforts are necessary to address them, thus input measures are less relevant to their success than
the outcome measures for each strategy. In previous discussions with the IG about this draft
report concerning input measures, the IG agreed that this is an Agency-level issue, and that it
needs to be raised and addressed at that level.

OECA does set targets, and uses outcome measures in monitoring progress of all of the
strategies, although some of these are through other mechanisms rather than stated explicitly in
the strategies. As such, OECA believes that the title of this report is overly negative in stating
that OECA needs to improve its strategic planning, and respectfully requests that the title be
revised to suggest that the strategy documents be made more explicit.

II.    OECA's Specific Comments and Corrections on Text of the Report

At a Glance

Revise draft report, as follows: “All three strategies lack some of the full range of measures
recommended by OMB and ...."

Table of Contents

Revise draft report, as follows: Delete reference to “Appendix C, FY 2008 – 2010 Exit Strategy
for Mineral Processing.”

Background

Revise draft report at page 1, as follows: “OECA evaluates candidate priorities and selects final
national priorities using three criteria: (1) significant environmental benefit, (2) pattern of
noncompliance, and (3) appropriate EPA responsibility federal involvement.

       Air Toxics Priority Area

       Revise draft report at page 2 as follows: “The FY 2008-2010 air toxics strategy
       focuses on three specific problem areas: leak detection and repair or LDAR,
       flares, and surface coating.

       Combined Sewer Overflows Priority Area

       Revise draft report at page 2, as follows: “. . . Under the priority area, EPA strives to get
       combined sewer systems, where required by the Clean Water Act, to establish and fully
       implement long-term control plans (LTCPs) that have enforceable schedules.

       Mineral Processing Priority Area

       Revise draft report at page 3, as follows: “. . . The FY 2008-2010 strategy contains the
       same overall goal as the previous strategy and includes a compliance assistance focus for
       mining but has dropped the focus on mining. "



                                                 16 

                                                                                            08-P-0278 



Subheading Missing

Revise draft report at page 3, as follows: Insert subheading titled “Strategic Planning.”

Noteworthy Achievements

Revise draft report at page 4, as follows: “In March 2007, OECA . . .Both of these documents
were used in the development of the 2008 – 2010 strategies.”

Strategies Do Not Contain Full Range of Measures

OECA Response to page 5 including Table 1.1: The proposed edits below reflect that the final
Air Toxics strategy does have outcome goals and outcome and output measures, the CSO
strategy does have an outcome goal (additional discussion at “Performance Measures” below) as
well as annual outcome performance measures [i.e., Annual Commitment System (ACS)
process], and the Mineral Processing Strategy does include annual outcome performance
measures (i.e., ACS process).

Revise draft report at page 5, as follows: “None of the three strategies reviewed has annual
outcome measures or input measures, and two are missing long-term outcome performance
measures.”

Revise draft report at Table 1 page 5, as indicated below.

                  Table 1.1: FY 2008 - 2010 Priority Area Strategy Measures
                                                       Air Toxics     CSOs           Mineral
                                                                                     Processing
 Overall Outcome Goal                                  Yes            Yes            Yes
 Long Term Outcome Performance Measures                NoYes          NoYes          Yes
 Annual Outcome Performance Measures                   NoYes          No Yes         NoYes
 Output Performance Measures                           Yes            Yes            Yes
 Input Measures                                        No             No             No

       Air Toxics Performance Measures

       OECA Response to pages 5 and 6: The July 16, 2008 draft report indicates that the FY
       2008-2010 Air Toxics Strategy lacks long term and annual outcome performance
       measures, as well as input measures and an overall exit strategy. We believe we have
       responded to these comments in a previous response to your office in May 2008.




                                                17 

                                                                                 08-P-0278 



As we stated previously, the Air Toxics Strategy includes a specific, measurable long-
term performance measure that will allow OECA to determine the performance of the Air
Toxics Strategy over time. The goal of the FY 08-10 Air Toxics Strategy is for each EPA
Region to address facilities in the regionally selected MACT universe(s) within the
National Problem Areas of LDAR, flares and surface coating. We believe this measure
serves as both a strategy goal and a long term measure.

Regarding annual performance measures, the Air Toxics Strategy requires each region to
submit annual milestones and a schedule for attainment of the goal. As part of this
process, each region has established annual commitments for compliance evaluations and
facilities addressed within their regionally selected universes. These milestones and
schedules have been reviewed and approved by the Strategy Implementation Team.
OECA is also developing a tracking system on the OTIS data system to assist both
headquarters and the regions in tracking progress towards attaining the goal. In addition,
outcomes from this strategy will be reported annually under the Government
Performance and Results Act (GPRA).

In addition, the final Air Toxics Strategy includes the following primary measures of
 progress, as well as outcomes and outputs. The primary measures of progress for the
FY08-10 Air Toxics Strategy will be: 1) number of sources evaluated within each focus
 area; and 2) percent of facilities addressed.

CSO Performance Measures

OECA Response to page 6: The CSO Strategy does have long-term outcome measures
which are reflected in Goal 1 of the Strategy. The Strategy does not explicitly state the
calendar dates by which the long-term outcome measures will be met because insufficient
data is available upon which to determine baselines and benchmarks.

Goal 2 is focused on ensuring that the Regions coordinate with their authorized States to
determine which of the smaller CSO communities are appropriate for Federal
enforcement in accordance with an April 10, 2005 memo signed by then ECOS President
and then Assistant Administrator for OECA. The Strategy states that the Regions have
until the end of FY08 to develop this list with their states, as follows: “By the end of
FY2008, EPA Regions will provide a list of appropriate Federal enforcement targets to
OECA and discuss setting appropriate goals for addressing them during the remainder of
the FY08 -FY10 cycle. Numeric goals and commitments for this universe will be
developed at that time.”

Revise draft report at page 6, as follows. We recommend deleting the paragraph: "The
CSO strategy does not..." and replacing it with language that will reflect these points:

The CSO strategy does have long-term outcome measures which are reflected in Goal 1
of the Strategy. The Strategy's overall goal is focused on ensuring that communities
representing significant population centers are making appropriate progress toward
addressing CSO problems and violations. However, the Strategy does not explicitly state



                                        18 

                                                                                   08-P-0278 



the calendar dates by which the long-term outcome measures will be met because
insufficient data is available upon which to base valid baselines and benchmarks. States
and EPA have until very recently been unable to report the needed data into PCS, the
former database of record. A modernized system, ICIS-NPDES, now allows entry of this
data. EPA is taking steps to require the data through the rulemaking process. In the
meantime, OECA has begun collecting the data manually from the regions. OECA is, on
an ongoing basis, monitoring the Regions’ progress in meeting this goal through the ACS
process, and through semi-annual data submission by the Regions to the Office of
Compliance.

While Goal 2 of the Strategy does not presently have an overall outcome goal, the
language in the Strategy suggests that one will be developed prior to the end of the FY08-
10 cycle.

Mineral Processing Performance Measures

OECA Response to page 6: While OECA has set annual targets for numbers of
inspections, it is not possible to determine the length of time necessary after an inspection
to develop an enforcement case and bring it to resolution. A number of factors make the
timing of case conclusions wholly unpredictable, most notably the cooperativeness of the
defendant in sharing information and negotiating an agreement. If a case goes into
litigation, case conclusion will depend on the schedule set by the court, which often
results in a multi-year process. This means that it is also not possible to develop annual
targets for numbers of enforcement actions, consent agreements or final orders.

We recommend deleting the two paragraphs on page 6 beginning with "Like the other
strategies, mineral processing..." and ending with "... enable it to make needed changes"
and replacing them with language that makes the following points:

While OECA has not set annual targets, except for inspections, it fully expects to address
the universe of facilities in the priority by FY 2010. For this priority, EPA defines
"facilities addressed" as facilities in compliance, on the path to compliance, and/or
implementing measures to address existing harm and reduce risks of potential harm. Due
to the variable length of time necessary to develop an enforcement case and bring it to
resolution, it is more realistic to set 3-year goals rather than set annual targets. A number
of factors make the timing of case conclusions wholly unpredictable, most notably the
cooperativeness of the defendant in sharing information and negotiating an agreement. If
a case goes into litigation, case conclusion will depend on the schedule set by the court,
which often results in a multi-year process. This means that it is also not possible to
develop annual targets for numbers of enforcement actions, consent agreements or final
orders.

OECA does monitor annual performance in terms of inspections, concluded cases,
percentage of universe brought into compliance, and pollutant reductions across the
regions and headquarters for their contributions to meeting the overall goal of the
Strategy by FY 2010. Further, the aggregated results provide the SIT the information



                                         19 

                                                                                          08-P-0278 



       they need to determine whether and when the priority can be returned to the core
       program.

Subheading Missing

Revise draft report at page 6, as follows: Insert subheading titled “Input Measures.”

OECA Response to page 6: OECA is not convinced of the value of incorporating input measures
to determine the effectiveness of the national priority strategies. The problems selected for
national priorities are such that federal efforts are necessary to address them, thus input measures
are less relevant to their success than the outcome measures for each strategy. OECA agrees
with comments made by the OIG in meetings concerning this report that input measures are an
Agency-wide issue and should be dealt with at that level.

Two Strategies Do Not Include a Plan for Exiting the Priority Area

OECA Response to page 7: The July 16, 2008 draft stated that the Air Toxics Strategy includes a
plan to exit the three national problem areas but does not address how to discontinue priority
treatment of air toxics as a whole. As indicated in the draft report, the current exit strategy
addresses the three national problem areas, which constitute the entire scope of the FY 08-10
strategy. Since the current strategy does not cover the air toxics program as a whole, it would be
inappropriate to include an exit strategy for the entire air toxics program. The air toxics program
includes numerous regulations and it is possible that it will continue to be an enforcement
priority in the future with new national problem areas on which to focus.

As stated in the CSO strategy, OECA believes it is premature to develop an exit strategy due to:
1) the current lack of adequate information related to the CSO permittees with populations under
50,000 that are appropriate for Federal enforcement; and 2) the need for additional information
from the Regions and the Office of Water regarding the current status of enforceable long-term
remedial measures for numerous systems with populations over 50,000. OECA expects
significant progress through enforcement actions in addressing CSOs by the end of FY 2010.
However, without the necessary information on each system, the CSO SIT cannot develop an
appropriate final exit strategy. The CSO SIT continues to work with the Regions to collect
accurate information on the status of these systems. This information is not available in ICIS,
nor are States required to report this information to EPA. As a result, the CSO SIT developed a
database to collect and track this information. This requires manual reporting from the Regions
and detailed review and management of this information by the SIT. The CSO SIT intends to
continue to manage this information, monitor progress to determine when CSO compliance and
enforcement can be returned to the “core” NPDES program, and will develop an exit strategy as
soon as sufficient information is available.

States' Roles in Accomplishing Overall CSO Strategy Goal Not Addressed

OECA Response to page 7: The draft report states that the Strategy does not address the states'
roles in accomplishing the Strategy’s overall goal. In fact, the Strategy references an April 10,
2005 memo signed by then ECOS President and then Assistant Administrator for OECA which



                                                 20 

                                                                                            08-P-0278 



provides specific detail about the roles and responsibilities of states and EPA, and what roles the
states may play in accomplishing the outcome performance measure. Additionally, the “Roles
and Responsibilities” section of the Strategy references the regional role in working with states
to ensure that appropriate progress is made towards addressing the CSO permittees. The
Strategy is clear as to what is an appropriate action to address a CSO system. Regions are
expected to ensure that they are reviewing the enforcement actions by their authorized states to
meet these criteria.

As we noted in comments on an earlier draft of the report, OECA submitted an updated
spreadsheet reflecting OECA’s ongoing evaluation of 14 New York state enforcement actions as
well as 25 state permits. This information should be reflected in the report.

Please revise the draft report at page 7, as follows: “We expect State permitting and enforcement
actions to continue to significantly contribute to attaining the overall CSO goal. According to
our analysis of OECA and regional data, about half of the systems serving large population
centers have LTCPs with enforceable schedules in place. Of these, about one-third resulted from
State enforcement actions. ..



Recommendations

1. 	   Issue a policy that requires strategy documents for the priority areas to include

       a. Output and outcome measures, and overall outcome goals with targets and timeframes.

OECA Response: Within 90 days from the date of the final report, OECA will issue a policy
memorandum requiring agreed-to revisions to be incorporated as part of the regularly-scheduled
review of the strategies scheduled for the end of the first year that the strategy has been in effect.
The revisions will be completed by April 30, 2009.

The policy will state that the strategies should include output and outcome measures with targets
and associated timeframes, as appropriate, and an overall outcome goal, since OECA believes
that these measures are most important in ensuring the effectiveness of the strategies. As noted
above, annual targets for enforcement cases are not appropriate, but other annual indicators can
be used to help monitor and assess progress toward a multi-year end goal.

       b. 	    Exit plans, including steps to transition the priority area back to the core program

OECA Response: While OECA believes that most of the strategies include milestones and exit
strategies, the policy will instruct the SITs to develop clearer milestone schedules and more
explicit exit strategies where needed.

       c. 	    States' roles for those areas where state involvement will be critical in
               accomplishing overall outcome goals




                                                  21 

                                                                                          08-P-0278 



OECA Response: The policy to be issued by OECA will instruct the SITs to address the role of
states (if any) in the implementation of the strategies by describing the explicit responsibilities
states will be asked to undertake.

2. 	   Develop a cost-effective methodology for measuring resource inputs in the national
       priorities.

OECA Response: OECA does not agree with this.




                                                 22 

                                                                                             08-P-0278


                                                                                         Appendix D

              OIG’s Evaluation of Agency Comments


No.          Agency Comments (see Appendix C)                               OIG Evaluation
 1    I. OECA Response to Draft Report                             We agree with the actions OECA
      Recommendations                                              proposes to address Recommendation 1.

      OECA agrees that the national priority strategies could
      be enhanced in a number of ways suggested by the IG.
      Within 90 days from the date of the final OIG report, a
      memorandum from the Assistant Administrator or the
      Principal Deputy Assistant Administrator will be issued
      to OECA headquarters and regional managers and staff
      involved in the management and implementation of the
      national compliance and enforcement strategies. The
      memo will require that the national priority strategy
      documents clearly identify output and outcome
      measures with targets and associated timeframes as
      appropriate, goals, milestone schedules and exit
      strategies.

      The policy will state that the revisions suggested by the
      OIG and accepted by OECA will be incorporated as part
      of the regularly-scheduled review of the strategies
      scheduled for the end of the first year that the strategy
      has been in effect. The revisions will be reflected in the
      strategies by April 30, 2009.

      The policy will state that the strategy documents will
      address output and outcome measures, and overall
      outcome goal since OECA believes that these measures
      are most important in ensuring the effectiveness of the
      strategies. While OECA believes that most of the
      strategies include milestones and exit strategies, the
      policy will direct the Strategy Implementation Teams to
      develop clearer milestone schedules and more explicit
      exit strategies where needed.




                                                   23 

                                                                                                 08-P-0278 



No.          Agency Comments (see Appendix C)                                 OIG Evaluation
 2    OECA views its state oversight responsibilities as a core    We do not state in the draft report that
      program function and is addressed by the State Review        EPA should address its oversight
      Framework (SRF). Given that state oversight                  responsibilities in the strategies. We
      responsibilities apply to the national compliance and        believe that State responsibilities need
      enforcement program as a whole (rather than the              to be addressed in the strategies if their
      priorities) and that the priority strategies deal with       work is critical to a strategy’s overall
      initiatives that are almost exclusively the responsibility   goal, as it is in the CSO strategy. For
      of EPA/OECA, we do not think it is appropriate to            example, State actions are key to EPA
      address oversight responsibilities in the strategies.        meeting its overall CSO priority
      However, the policy to be issued by OECA will direct         strategy goal since only about 28
      the SITs (strategy implementation teams) to address the      percent of facilities serving large
      role of states (if any) in the implementation of the         population centers have long-term
      strategies by describing the explicit responsibilities       control plans in place and about
      states will be asked to undertake.                           25 percent of those resulted from State
                                                                   actions. Effective planning for this
      Please note that the Office of Water (OW), rather than       priority would therefore necessarily
      OECA, is responsible for oversight of state permitting       factor in the ability of States to support
      programs. Therefore, if a large number of combined           the goals of the priority. As was stated
      sewer systems are addressed through state permits, state     in the draft report,” EPA’s dependence
      oversight of those systems is the responsibility of the      on State actions and the lack of a
      Office of Water (OW).                                        discussion in the strategy create
                                                                   uncertainty on whether the overall CSO
                                                                   goal can be achieved.”
                                                                   We agree with OECA’s proposed actions
                                                                   of directing the strategy implementation
                                                                   teams to address the role of States in the
                                                                   implementation of the strategies.
 3    OECA is not convinced of the value of input measures         We disagree. OECA cannot measure
      in determining the effectiveness of the national priority    the efficiency of its resource utilization
      strategies. The problems selected for national priorities    or adjust for changing resource needs
      are such that federal efforts are necessary to address       without input measures. The fact that
      them, thus input measures are less relevant to their         “federal efforts are necessary” for these
      success than the outcome measures for each strategy. In      activities does not distinguish them
      previous discussions with the IG about this draft report     from others engaged in by EPA. Even
      concerning input measures, the IG agreed that this is an     though the problems selected for
      Agency-level issue, and that it needs to be raised and       national priorities require federal effort,
      addressed at that level.                                     management still needs to know what
                                                                   resources they are trading-off between
                                                                   the core programs and the selected
                                                                   priorities to ensure program
                                                                   effectiveness.

                                                                   Further, the fact that this is an Agency-
                                                                   wide problem does not excuse OECA
                                                                   from a responsibility to address it.
                                                                   OECA has been proactive in other
                                                                   aspects of strategic planning; it can do
                                                                   so on this topic as well.



                                                   24 

                                                                                                     08-P-0278 



No.          Agency Comments (see Appendix C)                                   OIG Evaluation
 4    OECA does set targets, and uses outcome measures in            We changed the title to: EPA Has
      monitoring progress of all of the strategies, although         Initiated Strategic Planning for Priority
      some of these are through other mechanisms rather than         Enforcement Areas, but Key Elements
      stated explicitly in the strategies. As such, OECA             Still Needed.
      believes that the title of this report is overly negative in
      stating that OECA needs to improve its strategic
      planning, and respectfully requests that the title be
      revised to suggest that the strategy documents be made
      more explicit.
 5    II. OECA's Specific Comments and Corrections on                We do not believe these changes are
      Text of the Report                                             warranted. See analysis below.

      At a Glance                                                    No change.

      Revise draft report, as follows: "All three strategies lack
      some of the full range of measures recommended by
      OMB and . ..."
 6    Table of Contents                                              We will delete the reference.
      Revise draft report, as follows: Delete reference to
      "Appendix C, FY 2008 - 2010 Exit Strategy for Mineral
      Processing."


 7    Background                                                     We do not have support for this change.
      Revise draft report at page 1, as follows: "OECA               The OECA Web site:
      evaluates candidate priorities and selects final national      http://www.epa.gov/compliance/data/pl
      priorities using three criteria: (1) significant               anning/priorities/index.html uses the
      environmental benefit, (2) pattern of noncompliance,           same three elements mentioned in our
      and (3) appropriate EPA responsibility federal                 draft report.
      involvement.
                                                                     No change.
 8    Air Toxics Priority Area                                       We will add in the abbreviation
      Revise draft report at page 2 as follows: "The FY 2008-        “LDAR.”
      2010 air toxics strategy focuses on three specific
      problem areas: leak detection and repair or LDAR,
      flares, and surface coating."




                                                     25 

                                                                                                08-P-0278 



No.          Agency Comments (see Appendix C)                                 OIG Evaluation
 9    Combined Sewer Overflows Priority Area                        We agree to add “where required by the
      Revise draft report at page 2, as follows: ". . . Under the   Clean Water Act.”
      priority area, EPA strives to get combined sewer
      systems, where required by the Clean Water Act, to            We also agree to add in the word
      establish and fully implement long-term control plans         “implement,” even though that is what
      (LTCPs) that have enforceable schedules.                      is also implied by “enforceable
                                                                    schedules.” Because the long-term
                                                                    control plans will take years (even
                                                                    decades) to implement, we do not
                                                                    support adding “fully” as a modifier in
                                                                    front of “implement.” Most
                                                                    municipalities will be continuing to
                                                                    implement their long-term control plan
                                                                    long after OECA discontinues CSOs as
                                                                    a priority area.
10    Mineral Processing Priority Area                              We will rewrite the sentence as follows:
      Revise draft report at page 3, as follows: ". . . The FY      The FY 2008-2010 strategy generally
      2008-2010 strategy contains the same overall goal as the      contains the same overall goal for
      previous strategy and includes a compliance assistance        mineral processing facilities as the
      focus for mining but has dropped the focus on mining.         previous strategy, but for mining
                                                                    facilities the focus of the strategy
                                                                    changed from enforcement activities to
                                                                    compliance assistance.
11    Subheading Missing                                            The priority area titles are indented to
      Revise draft report at page 3, as follows: Insert             show that they are separate sections of
      subheading titled ''Strategic Planning."                      the background. The main background
                                                                    starts again with “Strategic planning is
                                                                    important…”

                                                                    No change.
12    Noteworthy Achievements                                       We do not have support for OECA’s
      Revise draft report at page 4, as follows: "In March          proposed revision. During our entrance
      2007, OECA . . .Both of these documents were used in          conference, we were told by OECA
      the development of the 2008 - 2010 strategies."               staff that the March 2007 document was
                                                                    not used in the development of the FY
                                                                    2008-2010 strategies because it was
                                                                    tool-based not problem-based.

                                                                    No change.




                                                     26 

                                                                                               08-P-0278 



No.          Agency Comments (see Appendix C)                                OIG Evaluation
13    Strategies Do Not Contain Full Range of Measures             We disagree with almost all of the
      OECA Response to page 5 including Table 1.1: The             proposed revisions to the report and
      proposed edits below reflect that the final Air Toxics       Table 1. We do agree to change our
      strategy does have outcome goals and outcome and             response for the long-term outcome
      output measures, the CSO strategy does have an               performance measure for air toxics to
      outcome goal (additional discussion at "Performance          “Yes.” See explanations below under
      Measures" below) as well as annual outcome                   Air Toxics, CSO, and Mineral
      performance measures [i.e., Annual Commitment                Processing performance measures.
      System (ACS) process], and the Mineral Processing
      Strategy does include annual outcome performance
      measures (i.e., ACS process).

      Revise draft report at page 5, as follows: "None of the
      three strategies reviewed has annual outcome measures
      or input measures, and two are missing long-term
      outcome performance measures.
      Revise draft report at Table 1 page 5, as indicated below.



           Table 1.1: FY 2008 - 2010 Priority Area Strategy
                              Measures

                             Air       CSOs       Mineral
                             Toxics               Processing

        Overall Outcome      Yes       Yes        Yes
        Goal

        Long Term            NoYes     NoYes      Yes
        Outcome
        Performance
        Measures

        Annual Outcome       NoYes     No Yes     NoYes
        Performance
        Measures

        Output               Yes       Yes        Yes
        Performance
        Measures

        Input Measures       No        No         No




                                                   27 

                                                                                                 08-P-0278 



No.           Agency Comments (see Appendix C)                                OIG Evaluation
14    Air Toxics Performance Measures                              The long-term outcome performance
      OECA Response to pages 5 and 6: The July 16, 2008            measure in the air toxics strategy
      draft report indicates that the FY 2008-2010 Air Toxics      measures the extent to which EPA has
      Strategy lacks long term and annual outcome                  addressed facilities in the three problem
      performance measures, as well as input measures and an       areas. While these activities will put
      overall exit strategy. We believe we have responded to       facilities on the path to compliance and
      these comments in a previous response to your office in      lead to outcomes, we also believe that
      May 2008.                                                    OECA could develop outcome
                                                                   measures that include such things as
      As we stated previously, the Air Toxics Strategy             bringing facilities into compliance over
      includes a specific, measurable long-term performance        a certain period of time. It might be
      measure that will allow OECA to determine the                difficult to develop targets for this type
      performance of the Air Toxics Strategy over time. The        of outcome performance measure
      goal of the FY 08-10 Air Toxics Strategy is for each         because facilities often do not achieve
      EPA Region to address in the regionally selected MACT        full compliance for many years after an
      universe(s) within the National Problem Areas of             action is taken, and OECA priority
      LDAR, flares and surface coating. We believe this            areas are of fixed duration. For the
      measure serves as both a strategy goal and a long term       purposes of Table 1, we will count it as
      measure.                                                     a long-term outcome measure.

      Regarding annual performance measures, the Air Toxics        We disagree that air toxics has annual
      Strategy requires each region to submit annual               outcome performance measures. The
      milestones and a schedule for attainment of the goal. As     annual commitments made by the
      part of this process, each region has established annual     Regions are the number of compliance
      commitments for compliance evaluations and facilities        evaluations for LDAR, flares, or surface
      addressed within their regionally selected universes.        coating. Each region’s commitment
      These milestones and schedules have been reviewed and        number is an output not an outcome.
      approved by the Strategy Implementation Team. OECA           OECA needs to establish annual
      is also developing a tracking system on the OTIS data        outcome performance measures for the
      system to assist both headquarters and the regions in        air toxics strategy. Such measures
      tracking progress towards attaining the goal. In addition,   would allow OECA to monitor annual
      outcomes from this strategy will be reported annually        progress toward achieving its long-term
      under the Government Performance and Results Act             outcome performance measure and, if
      (GPRA).                                                      necessary, implement any changes
                                                                   needed to keep the program on track.
          •   In addition, the final Air Toxics Strategy
              includes the following primary measures of
              progress, as well as outcomes and outputs. The
              primary measures of progress for the FY08-10
              Air Toxics Strategy will be: 1) number of
              sources evaluated within each focus area; and 2)
              percent of facilities addressed.




                                                   28 

                                                                                              08-P-0278 



No.          Agency Comments (see Appendix C)                               OIG Evaluation
15    CSO Performance Measures                                    Goal 1 of the CSO strategy does contain
                                                                  long-term outcome measures.
      OECA Response to page 6: The CSO Strategy does              However, without baselines and
      have long-term outcome measures which are reflected in      benchmarks, these are not performance
      Goal 1 of the Strategy. The Strategy does not explicitly    measures. The opening sentence of the
      state the calendar dates by which the long-term outcome     paragraph will be changed to include
      measures will be met because insufficient data is           “performance” as is implied by the
      available upon which to determine baselines and             subsection header and as is included in
      benchmarks.                                                 the opening sentence of the paragraphs
                                                                  for the other two priority areas: “The
      Goal 2 is focused on ensuring that the Regions              CSO strategy does not have any long-
      coordinate with their authorized States to determine        term or annual outcome performance
      which of the smaller CSO communities are appropriate        measures.”
      for Federal enforcement in accordance with an April 10,
      2005 memo signed by then ECOS President and then            We understand the focus of Goal 2 in
      Assistant Administrator for OECA. The Strategy states       ensuring that the regions coordinate
      that the Regions have until the end of FY08 to develop      with the States to determine which
      this list with their states, as follows: "By the end of     smaller CSO communities are
      FY2008, EPA Regions will provide a list of appropriate      appropriate for federal enforcement
      Federal enforcement targets to OECA and discuss             action. However, as written, Goal 2 is
      setting appropriate goals for addressing them during the    an annual output measure and not an
      remainder of the FY08 -FYI0 cycle. Numeric goals and        annual outcome performance measure.
      commitments for this universe will be developed at that
      time."                                                      We did not include an evaluation of
                                                                  ICIS (Integrated Compliance
      Revise draft report at page 6, as follows. We               Information System) and PCS (Permit
      recommend deleting the paragraph: "The CSO strategy         Compliance System) in our field work.
      does not ..." and replacing it with language that will      Therefore we are not in a position to
      reflect these points:                                       include the database issues in our
                                                                  report. We recognize OECA’s ability to
      The CSO strategy does have long-term outcome                track progress is hampered because of
      measures which are reflected in Goal 1 of the Strategy.     these database issues. However, OECA
      The Strategy's overall goal is focused on ensuring that     has taken steps to collect this data
      communities representing significant population centers     manually throughout the last priority
      are making appropriate progress toward addressing CSO       area cycle (FY 2005-2007). Therefore,
      problems and violations. However, the Strategy does not     the effort has been underway longer
      explicitly state the calendar dates by which the long-      than implied by the language OECA has
      term outcome measures will be met because insufficient      requested (“OECA has begun collecting
      data is available upon which to base valid baselines and    the data manually from the regions.”).
      benchmarks. States and EPA have until very recently         This effort has been ongoing for long
      been unable to report the needed data into PCS, the         enough that it is our opinion that
      former database of record. A modernized system, ICIS-       baseline information should be well
      NPDES, now allows entry of this data. EPA is taking         established.
      steps to require the data through the rulemaking process.
      In the meantime, OECA has begun collecting the data         No change.
      manually from the regions. OECA is, on an ongoing
      basis, monitoring the Regions' progress in meeting this
      goal through the ACS process, and through semi-annual
      data submission by the Regions to the Office of
      Compliance. While Goal 2 of the Strategy does not
      presently have an overall outcome goal, the language in
      the Strategy suggests that one will be developed prior to
      the end of the FY08-10 cycle.                 29
                                                                                                 08-P-0278 



No.          Agency Comments (see Appendix C)                                 OIG Evaluation
16    Mineral Processing Performance Measures                      We agree that it can be difficult to set
                                                                   annual targets. However, OECA’s own
      OECA Response to page 6: While OECA has set annual           policy requires that appropriate
      targets for numbers of inspections, it is not possible to    enforcement response be completed
      determine the length of time necessary after an              within specific timeframes (see
      inspection to develop an enforcement case and bring it       Hazardous Waste Civil Enforcement
      to resolution. A number of factors make the timing of        Response Policy, December 2003). For
      case conclusions wholly unpredictable, most notably the      example, significant noncompliance
      cooperativeness of the defendant in sharing information      must be addressed with a formal
      and negotiating an agreement. If a case goes into            enforcement response that mandates
      litigation, case conclusion will depend on the schedule      compliance and initiates either an
      set by the court, which often results in a multi-year        administrative or civil action (see page
      process. This means that it is also not possible to          9). The policy provides response time
      develop annual targets for numbers of enforcement            guidelines which can be used to set
      actions, consent agreements or final orders.                 targets for issuing unilateral or initial
                                                                   compliance orders, Department of
      We recommend deleting the two paragraphs on page 6           Justice referrals, or final or consent
      beginning with "Like the other strategies, mineral           orders (see pages 10-12). It seems that
      processing ..." and ending with "... enable it to make       these types of enforcement actions
      needed changes" and replacing them with language that        would occur prior to any efforts to
      makes the following points:                                  negotiate a settlement and the
                                                                   timeframe could be estimated for when
      While OECA has not set annual targets, except for            these actions would occur.
      inspections, it fully expects to address the universe of
      facilities in the priority by FY 2010. For this priority,    We agree that targets cannot be readily
      EPA defines "facilities addressed" as facilities in          set for settlement negotiations with
      compliance, on the path to compliance, and/or                Department of Justice or case
      implementing measures to address existing harm and           conclusions, as these may take years to
      reduce risks of potential harm. Due to the variable          accomplish.
      length of time necessary to develop an enforcement case
      and bring it to resolution, it is more realistic to set 3-   Currently, OECA only sets targets for
      year goals rather than set annual targets. A number of       inspections. OECA could also set
      factors make the timing of case conclusions wholly           targets using its existing Annual
      unpredictable, most notably the cooperativeness of the       Commitment System process for initial
      defendant in sharing information and negotiating an          enforcement actions for the ensuing
      agreement. If a case goes into litigation, case conclusion   fiscal year based on the results of these
      will depend on the schedule set by the court, which          inspections. Further, OECA could
      often results in a multi-year process. This means that it    establish 3-year goals for case
      is also not possible to develop annual targets for           conclusions.
      numbers of enforcement actions, consent agreements or
      final orders. OECA does monitor annual performance           No change.
      in terms of inspections, concluded cases, percentage of
      universe brought into compliance, and pollutant
      reductions across the regions and headquarters for their
      contributions to meeting the overall goal of the Strategy
      by FY 2010. Further, the aggregated results provide the
      SIT the information they need to determine whether and
      when the priority can be returned to the core program.




                                                   30 

                                                                                                 08-P-0278 



No.          Agency Comments (see Appendix C)                                  OIG Evaluation
17    Subheading Missing                                            The discussion on input measures,
      Revise draft report at page 6, as follows: Insert             where the Agency suggested we insert a
      subheading titled ''Input Measures."                          heading, applies to all of the priority
                                                                    areas. Therefore, this text is indented
                                                                    only once. Input measures fall under
                                                                    the subsection heading on page 5,
                                                                    “Strategies Do Not Contain Full Range
                                                                    of Measures.”

                                                                    No change.
18    OECA Response to page 6: OECA is not convinced of             See response No. 3.
      the value of incorporating input measures to determine
      the effectiveness of the national priority strategies. The
      problems selected for national priorities are such that
      federal efforts are necessary to address them, thus input
      measures are less relevant to their success than the
      outcome measures for each strategy. OECA agrees with
      comments made by the OIG in meetings concerning this
      report that input measures are an Agency-wide issue and
      should be dealt with at that level.
19    Two Strategies Do Not Include a Plan for Exiting the          OECA chose air toxics as its FY 2008-
      Priority Area                                                 2010 priority area and is choosing to
      OECA Response to page 7: The July 16, 2008 draft              address it by focusing on three problem
      stated that the Air Toxics Strategy includes a plan to exit   areas. This decision does not negate
      the three national problem areas but does not address         OECA’s responsibility to disclose its
      how to discontinue priority treatment of air toxics as a      plans for the air toxics area as a whole.
      whole. As indicated in the draft report, the current exit     We understand that it may be premature
      strategy addresses the three national problem areas,          to indicate with specificity at this time
      which constitute the entire scope of the FY 08-10             when the air toxics priority area will be
      strategy. Since the current strategy does not cover the       completed. However, the priority area
      air toxics program as a whole, it would be inappropriate      strategy does not even indicate in broad,
      to include an exit strategy for the entire air toxics         general terms what factors will be
      program. The air toxics program includes numerous             considered when deciding to exit the
      regulations and it is possible that it will continue to be    whole priority area. As time goes on,
      an enforcement priority in the future with new national       more specificity can be added, but as
      problem areas on which to focus.                              stated in the report, some thought
                                                                    should be given to this so as to allow
                                                                    the priority area to transfer smoothly
                                                                    back to the core program when the time
                                                                    comes.




                                                    31 

                                                                                                08-P-0278 



No.          Agency Comments (see Appendix C)                                OIG Evaluation
20    As stated in the CSO strategy, OECA believes it is          We understand that OECA lacks
      premature to develop an exit strategy due to: 1) the        information it needs to completely
      current lack of adequate information related to the CSO     formulate a detailed exit plan for the
      permittees with populations under 50,000 that are           CSO strategy. The strategy lays out a
      appropriate for Federal enforcement; and 2) the need for    time frame for obtaining the
      additional information from the Regions and the Office      information related to defining the
      of Water regarding the current status of enforceable        universe of CSO permittees where
      long-term remedial measures for numerous systems with       federal involvement will be appropriate.
      populations over 50,000. OECA expects significant           The strategy also lays out the
      progress through enforcement actions in addressing          responsibility of the CSO strategy
      CSOs by the end of FY 2010. However, without the            implementation team to work with
      necessary information on each system, the CSO SIT           Office of Water to reconcile and
      cannot develop an appropriate final exit strategy. The      coordinate on information management.
      CSO SIT continues to work with the Regions to collect       The Region’s responsibilities to collect
      accurate information on the status of these systems. This   and report results for the key measures
      information is not available in ICIS, nor are States        are also outlined in the strategy. If this
      required to report this information to EPA. As a result,    information gathering plan is
      the CSO SIT developed a database to collect and track       implemented, the CSO strategy
      this information. This requires manual reporting from       implementation team should be able to
      the Regions and detailed review and management of this      add an exit plan to the priority strategy.
      information by the SIT. The CSO SIT intends to              That said, OECA established CSO as a
      continue to manage this information, monitor progress       priority area in 1998. We fail to
      to determine when CSO compliance and enforcement            understand why, after 10 years, OECA
      can be returned to the "core" NPDES program, and will       still struggles with baseline information
      develop an exit strategy as soon as sufficient              in this priority area. Milestones need to
      information is available.                                   be set and monitored in order for OECA
                                                                  to solve these long-lived data
                                                                  management issues.




                                                  32 

                                                                                                08-P-0278 



No.          Agency Comments (see Appendix C)                                OIG Evaluation
21    States' Roles in Accomplishing Overall CSO Strategy         Guidelines for Federal Enforcement in
      Goal Not Addressed                                          CSO/SSO (Sanitary Sewer Overflow)
                                                                  Cases is the subject of the April 10,
      OECA Response to page 7: The draft report states that       2005, memo cited in OECA’s response
      the Strategy does not address the states' roles in          and in the CSO strategy. The memo
      accomplishing the Strategy's overall goal. In fact, the     includes a purpose statement: “to
      Strategy references an April 10, 2005 memo signed by        present guidelines developed by the
      then ECOS President and then Assistant Administrator        CSO/SSO Workgroup on federal
      for OECA which provides specific detail about the roles     enforcement in authorized states.” The
      and responsibilities of states and EPA, and what roles      focus of this memo is on federal roles,
      the states may play in accomplishing the outcome            not on State roles.
      performance measure. Additionally, the "Roles and
      Responsibilities" section of the Strategy references the    The strategy, under a section titled
      regional role in working with states to ensure that         “Roles and Responsibilities,” states:
      appropriate progress is made towards addressing the         “EPA Headquarters and Regional
      CSO permittees. The Strategy is clear as to what is an      Offices and State environmental
      appropriate action to address a CSO system. Regions are     agencies all have important roles to play
      expected to ensure that they are reviewing the              in the CSO strategy. The specific
      enforcement actions by their authorized states to           responsibilities of each party are
      meet these criteria. As we noted in comments on an          described below.” However, the
      earlier draft of the report, OECA submitted an updated      strategy does not include a description
      spreadsheet reflecting OECA's ongoing evaluation of 14      of the specific responsibilities of the
      New York state enforcement actions as well as 25 state      State environmental agencies.
      permits. This information should be reflected in the
      report.                                                     Moreover, we analyzed the updated
                                                                  spreadsheet OECA provided us.
      Please revise the draft report at page 7, as follows: "We   Because the spreadsheet is OECA’s
      expect State permitting and enforcement actions to          interpretation of the data provided to it
      continue to significantly contribute to attaining the       by the regions, we chose to label this
      overall CSO goal. According to our analysis of OECA         spreadsheet as “OECA data,” not
      and regional data, about half of the systems serving        “OECA and regional data.”
      large population centers have LTCPs with enforceable
      schedules in place. Of these, about one-third resulted      The spreadsheet tracks 202 permits.
      from State enforcement actions. ..                          Of these, 56 are indicated as having
                                                                  been addressed per Goal 1. This is
                                                                  28 percent. We will change the text to
                                                                  be more specific (28 percent) rather
                                                                  than “less than one-third.”

                                                                  Of the 56 permits listed as being
                                                                  addressed per Goal 1, 14 are listed as
                                                                  resulting from State enforcement
                                                                  actions. This is 25 percent, as indicated
                                                                  in the draft report.




                                                   33 

                                                                                                 08-P-0278 



No.          Agency Comments (see Appendix C)                                 OIG Evaluation
22    Recommendations                                               We agree with OECA’s response to this
      1. Issue a policy that requires strategy documents for the    part of the recommendation.
      priority areas to include

      a. Output and outcome measures, and overall outcome
      goals with targets and timeframes.

      OECA Response: Within 90 days from the date of the
      final report, OECA will issue a policy memorandum
      requiring agreed-to revisions to be incorporated as part
      of the regularly-scheduled
      review of the strategies scheduled for the end of the first
      year that the strategy has been in effect. The revisions
      will be completed by April 30, 2009.

      The policy will state that the strategies should include
      output and outcome measures with targets and
      associated timeframes, as appropriate, and an overall
      outcome goal, since OECA believes that these measures
      are most important in ensuring the effectiveness of the
      strategies. As noted above, annual targets for
      enforcement cases are not appropriate, but other annual
      indicators can be used to help monitor and assess
      progress toward a multi-year end goal.
23    b. Exit plans, including steps to transition the priority     We disagree that air toxics and CSO
      area back to the core program                                 strategies include milestones and exit
                                                                    strategies for their priority areas. We
      OECA Response: While OECA believes that most of               agree for the need for strategy
      the strategies include milestones and exit                    implementation teams to develop
      strategies, the policy will instruct the SITs to develop      clearer milestone schedules and explicit
      clearer milestone schedules and more                          exit strategies for the air toxics and
      explicit exit strategies where needed.                        CSOs priority areas.
24    c. States' roles for those areas where state involvement      We agree with the proposed actions in
      will be critical in                                           OECA’s response. We would add that
      accomplishing overall outcome goals                           OECA needs to ensure that the CSO
                                                                    priority area is revised to include a
      OECA Response: The policy to be issued by OECA                description of States’ roles.
      will instruct the SITs to address the role of states (if any)
      in the implementation of the strategies by describing the
      explicit responsibilities states will be asked to
      undertake.
25    2. Develop a cost-effective methodology for measuring         See Response #3.
      resource inputs in the national
      priorities.

      OECA Response: OECA does not agree with this
      recommendation.




                                                    34 

                                                                                   08-P-0278


                                                                               Appendix E

                                    Distribution

Office of the Administrator
Assistant Administrator for Enforcement and Compliance Assurance
Principal Deputy Assistant Administrator for Enforcement and Compliance Assurance
Director, Office of Compliance, Office of Enforcement and Compliance Assurance
Director, Office of Civil Enforcement, Office of Enforcement and Compliance Assurance
Agency Follow-up Official (the CFO)
Agency Follow-up Coordinator
Office of General Counsel
Associate Administrator for Congressional and Intergovernmental Relations
Associate Administrator for Public Affairs
Audit Follow-up Coordinator, Office of Enforcement and Compliance Assurance
Deputy Inspector General




                                             35 

